No._ _ _ __

Jn tltbe
~upreme qcourt of tbe mniteb ~tate~
COVIA DZELL SMITH,

Petitioner,

v.
UNITED STATES OF AMERICA,

Respondent.

AFFIDAVIT OF SERVICE
I, Karen R. Taylor, being eighteen years or older, do certify under penalty of
perjury that the foregoing is true and correct. That on the 29th day of March, 2020,
I filed a copy of the Petition of Writ of Certiorari, Motion for Leave to Proceed In
Forma Pauperis and Motion to Exceed Word Limitations with the United States
Supreme Court via UPS Ground Transportation. I further certify that I served a
copy of said Petition via UPS Ground Transportation addressed to the following:
Solicitor General of the United States
Department of Justice
950 Pennsylvania Avenue, NW, Room 5614
Washington, DC 20530-0001
Jennifer May-Parker
Office of the United States Attorney
150 Fayetteville Street, Suite 2100
Raleigh, North Carolina 27601

Counsel for Respondent

~-d¥
Gibson Moore Appellate Services, LLC
206 East Cary Street
Richmond, VA 23219

For:
Kelly Margolis Dagger
Counsel of Record
Paul K. Sun, Jr.
Ellis & Winters LLP
Post Office Box 33550
Raleigh, North Carolina 27636
(919) 865-7000
Counsel for Petitioner
Signed and subscribed before me on this 29th day of March, 2020.

Bradford E. Moore
NOTARY PUBLIC
Commonwealth of Virginia
Reg. #7241026
Commission Exp. 4/30/2021

